CERTIFICATE OF COMPLIANCE WITH WORD COUNT
CERTIFICATE OF COMPLIANCE
No. 07PROBIR KUMAR BONDYOPADHYAY
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 1599 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 15,2021

/s: '2*2./
(Petitioner, Pro Se)

JT

1.

\

f

